<html>
<title> - PROTECTING OUR NORTHERN BORDER: ENHANCING COLLABORATION AND BUILDING LOCAL PARTNERSHIPS</title>
<body><pre>[Senate Hearing 113-537]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-537

                    PROTECTING OUR NORTHERN BORDER:
        ENHANCING COLLABORATION AND BUILDING LOCAL PARTNERSHIPS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE EFFICIENCY AND
      EFFECTIVENESS OF FEDERAL PROGRAMS AND THE FEDERAL WORKFORCE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                    FIELD HEARING IN HAVRE, MONTANA

                               __________

                             JULY 12, 2013

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                                   ______

                    U.S. GOVERNMENT PUBLISHING OFFICE 

82-576 PDF                    WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEIKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


 SUBCOMMITTEE ON THE EFFICIENCY AND EFFECTIVENESS OF FEDERAL PROGRAMS 
                       AND THE FEDERAL WORKFORCE

                     JON TESTER, Montana, Chairman
MARK L. PRYOR, Arkansas              ROB PORTMAN, Ohio
CLAIRE McCASKILL, Missouri           RON JOHNSON, Wisconsin
MARK BEGICH, Alaska                  RAND PAUL, Kentucky
TAMMY BALDWIN, Wisconsin             MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota

                 Tony McClain, Majority Staff Director
                 Brent Bombach, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Tester...............................................     1
    Congressman Daines...........................................     2

                               WITNESSES
                         Friday, July 12, 2013

Don Brostrom, Sheriff of Hill County, Montana....................     3
Nathan Burr, Havre Sector Vice President and U.S. Border Patrol 
  Agent, National Border Patrol Council..........................     5
Debbie Vandeberg, Executive Director, Havre Chamber of Commerce..     7
Kumar C. Kibble, Special Agent in Charge, Denver, U.S. 
  Immigrations and Customs Enforcement...........................    16
Christopher Richards, Havre Sector Chief Patrol Agent............    17
Robert Desrosier, Homeland Security Director, Blackfeet Nation...    19

                     Alphabetical List of Witnesses

Brostrom, Don:
    Testimony....................................................     3
    Prepared statement...........................................    29
Burr, Nathan:
    Testimony....................................................     5
    Prepared statement...........................................    31
Desrosier, Robert:
    Testimony....................................................    19
Kibble, Kumar C.:
    Testimony....................................................    16
    Prepared statement...........................................    37
Richards, Christopher:
    Testimony....................................................    17
Vandeberg, Debbie:
    Testimony....................................................     7
    Prepared statement...........................................    34

 
                    PROTECTING OUR NORTHERN BORDER:

        ENHANCING COLLABORATION AND BUILDING LOCAL PARTNERSHIPS

                              ----------                              


                         FRIDAY, JULY 12, 2013

                                 U.S. Senate,      
        Subcommittee on the Efficiency and Effectiveness of
                Federal Programs and the Federal Workforce,
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I would call to order this hearing of the 
U.S. Senate Committee on Homeland Security, Subcommittee on 
Efficiency and Effectiveness of the Federal Programs and the 
Federal WorkForce. This afternoon's hearing is entitled 
Protecting Our Northern border: Enhancing, Collaboration, and 
Building Local Partnerships.
    And I want to thank my colleague Congressman Steve Daines, 
as well as his staff, for their contribution to this hearing. I 
want to thank our witnesses for joining us here today and for 
their ongoing work on behalf of our Nation and behalf of our 
communities here in Montana.
    When the topic of border security arises in Washington, DC, 
it is the Southwest border that gets most of the attention. 
Well, like most folks in this room, I happen to live within 100 
miles of the Northern border and have my entire life. And we 
will continue doing all that we can to ensure that the needs up 
here are addressed when we start talking about border security. 
After all our Northern border with Canada is the longest shared 
border in the world, some 5,500 miles, including 545 miles in 
this State alone.
    And I do not need to tell you that, when patrolling in an 
area that expansive, manpower is an answer, but it is not the 
only answer. It is about deployment of effective technologies. 
It is about Federal, State, local and Canadian partners working 
closely and collaboratively. And today we would like to discuss 
some of the things that we are doing right, and we would like 
to identify some of our opportunities to improve the things 
that we can do better.
    After all this is just not a security issue. It is an 
economic issue. It is a jobs issue. And I know how much cross-
border commerce means to our State and especially to this 
community of Havre. There's certainly a way to promote smart 
and effective border security without compromising economic 
opportunity.
    So with that I would like to turn it over to my colleague 
Congressman Steve Daines for his opening statement. Steve.

            OPENING STATEMENT OF CONGRESSMAN DAINES

    Congressman Daines. Thanks, Jon. And I do want to thank 
Senator Tester and his staff and the Senate Homeland Security 
and Government Affairs Committee for holding this hearing in 
Havre and inviting me to participate. In fact, when Cindy and I 
were married 27 years ago, my best man was a Havre Blue Pony. 
So it is nice to have some connection here to the community of 
Havre.
    Let me just say this, I very much enjoyed working with Jon 
Tester and Max Baucus back in Washington, as the three of us 
who represent this State, this great State back in D.C. And 
unfortunately Washington is described more by gridlock and 
partisanship. And it is nice to be back home today with Senator 
Tester, working together on issues that matter most to 
Montanans.
    With more than 500 miles of border with Canada, I think it 
is 545 to be exact, I believe it is very important to assess 
the current effort to secure the Northern border here in 
Montana and across our country. I also serve on the Homeland 
Security Committee on the House side, and so certainly both Jon 
and I get to have a voice on these issues as we represent our 
State back in DC. As Jon mentioned, it is critical to our 
national security and our economy that we are effective in 
doing so.
    And as we all hear the Southern border receives most of the 
attention. However, it is important to remember that the 
Northern border is as much of a threat to security as the 
Southern border. For example, I had a briefing yesterday in 
Washington. According to the Federal Bureau of Investigations 
(FBI) terrorist screening databases, the Northern border has 
received five times as many individuals with potential links 
with terrorism as compared to the Southern border. Several of 
these so-called hits in the FBI database involved Montana 
border crossings. In order to truly secure the borders, we need 
to make sure that the Northern border is as much of a priority 
as the Southern border.
    At a House Homeland Security Committee meeting that I had 
back in Washington on Wednesday, we were discussing the Boston 
marathon bombings. In fact, we had the distinguished privilege 
of Mayor Rudy Giuliani coming and testifying. And certainly 
remember the events of September 11, 2001, and the role that 
Mayor Giuliani played. He made an interesting observation. He 
said this: The United States has 12,000 FBI agents, but there 
are over 800,000 State and local law enforcement personnel. 
Clearly we need to leverage that partnership between Federal 
resources and the State and local resources, so that we can 
more effectively secure our borders.
    I look forward to hearing the perspective of all of our 
witnesses today. And looking forward to seeing what needs to be 
improved on our joint efforts to secure our borders. Thanks for 
participating in this hearing. And most importantly thank you 
for your important efforts here in Havre and our community. You 
are playing a pivotal role in protecting all Americans and 
importantly facilitating our economic prosperity.
    Senator Tester. Thank you, Steve. Now, I would like to 
welcome our witnesses and introduce our first panel, what I 
might add, probably need no introduction here in Havre, 
Montana.
    For Sheriff Don Brostrom, Don began his career with Hill 
County in 1989, starting as a reserve deputy sheriff. He has 
served the county since then holding the positions of deputy 
sheriff and undersheriff. In 2008 he was appointed the Hill 
County sheriff/coroner and was elected to that same position 
again in 2010. Welcome, Don.
    Sheriff Brostrom. Thank you.
    Senator Tester. Next we have Nathan Burr. Nathan Burr has 
recently taken on the position of Vice President of the Havre 
sector within the National Border Patrol Council. He also 
serves as a U.S. Border Patrol agent and has served in the 
United States Marine Corps (USMC). Nice haircut. Currently he 
lives in Montana with his family, and he is an avid hunter.
    And finally on this panel, Debbie Vandenberg. Debbie is 
Executive Director of the Havre Area Chamber of Commerce. She 
chairs multiple committees within the chamber, including 
government affairs, Havre festival days, and leadership high 
school. Beyond that, she serves as the staff support in the 
Havre Pride Tourism Business Improvement District and member 
committees.
    It is good to have you all here. And it is a custom in this 
committee that all of the witnesses who testify before this 
committee are sworn in. So if you do not mind, for duplication 
purposes, I think we will have the first and the second panel 
stand and please just say yes, if you agree.
    Thereupon, the panel of witnesses, having been first duly 
sworn to tell the truth, the whole truth and nothing but the 
truth, testified upon their oath as follows:
    Let the record reflect that the witnesses answered in the 
affirmative. Your entire testimony will be put in the record. 
If you could talk about your testimony, we will open with about 
5 minutes for opening statements, and we will start with you, 
Don.

 TESTIMONY OF DON BROSTROM,\1\ SHERIFF OF HILL COUNTY, MONTANA

    Sheriff Brostrom. Thank you. Senator Tester, Congressman 
Daines, good afternoon. I would like to thank you for allowing 
me the opportunity to speak at this hearing. It is indeed an 
honor to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Sheriff Brostrom appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    Hill County is primarily a rural agricultural county 
located in north central Montana comprised of approximately 
2,900 square miles with a population of just over 16,000. The 
terrain is extremely rugged, ranging from glaciated plains to 
steep sloping hills. Weather can range from highs of over 100 
degrees during the summer to lows that are 30 degrees or more 
below zero. Weather in this area is extremely variable and can 
change drastically in a very short period of time. These types 
of conditions, coupled with a large response area, affects not 
only law enforcement's response to specific calls for service, 
but seriously impacts regular patrol capabilities, especially 
throughout the majority of winter and summer months. These 
factors clearly indicate the need for a cooperative and 
collaborative approach by law enforcement to keep the 
communities safe and the borders secure.
    Many years ago when I began my career in law enforcement, I 
can recall needing backup on a serious call or perhaps cover 
unit on a traffic stop. I also recall many times when I 
requested such assistance, it was in the form of one of the 
local Border Patrol agents. Being from a small law enforcement 
agency, we did not always have the luxury of many officers on a 
shift. Many times you were the only deputy on duty or your 
backup was on the alternate end of the county, sometimes 50 
miles or more away. I can tell you it was a huge relief to look 
over your shoulder and see one of the Border Patrol agents 
arrive to assist.
    Our local Border Patrol agents provide higher degree of 
training and skill sets, which they are always open to sharing 
with local law enforcement. Many years ago, several agents 
provided training and sign cutting and man tracking. Months 
later this training allowed me to arrest a subject who had 
committed numerous residential burglaries and thefts in the 
Wildhorse Port of Entry area. Without this training and the 
individual assistance of local agents, this crime may have gone 
unsolved.
    Now, nearly 25 years later, there have been numerous 
changes at both agencies: New leadership, new facilities, 
additional staff, and growing responsibilities. However, even 
with these changes, the situation is largely the same as it was 
25 years ago. My deputies still work hand-in-hand with local 
Border Patrol agents. They provide backup on calls when needed 
and provide training when requested. Border patrol agents 
participate in countless local committees, including the Local 
Emergency Planning Committee and the local Drug Task Force. 
Border patrol agents participated and were instrumental during 
a May 2011 interoperable communications exercise held in Hill 
County. Air wing personnel have assisted my office in criminal 
incidents, as well as on search and rescue missions.
    Over the past several years, the Hill County Sheriff's 
office has been fortunate to receive Operation Stonegarden 
funding, which allows local law enforcement to be used as a 
force multiplier for Federal authorities along the border. This 
collaborative effort has been successful, as it allows the 
Border Patrol to direct local law enforcement to a specific 
site or location that for them may be problematic. It is also a 
tremendous benefit to Hill County as the added patrols allow 
more interaction with rural residents and provides us the 
ability to be more productive in our law enforcement approach. 
This increase in proactive patrolling has led to a decrease in 
criminal activity, specifically residential burglaries and 
thefts.
    Operation Stonegarden funding has also allowed Hill County 
Sheriff's office the ability to purchase speciality equipment 
tight local budgets would not have been permitted. This 
equipment is not only key to Stonegarden operations, but also 
provides a higher level of officer safety. As an example, we 
were recently awarded Stonegarden funding that will permit the 
purchase of global positioning systems software and devices for 
our current portable radios. This will allow us to provide 
precise GPS data to the Border Patrol during an incident or 
emergency landing zone coordinates for medical emergency during 
a Stonegarden operation. None of the software equipment would 
be possible without this grant funding.
    In closing, I feel that the most important aspect in 
protecting our Northern border is simple communication. From 
this hearing today, to formal quarterly meetings, to a simple 
cup of coffee, communication is key to our overall success. 
While funding and technology play major roles now, as well as 
in the future, I believe we need to keep our lines of 
communication open. Our Federal partners need to keep us 
informed of their plans and objectives. Local law enforcement 
needs to ensure that we reciprocate and keep our Federal 
partners informed of issues and concerns which affect local law 
enforcement. When this circle of communications is complete, 
the end result is more effective use of Federal and local 
resources. We always have and must continue to work side by 
side to ensure the safety of our Nation, our State, and our 
local communities. Thank you.
    Senator Tester. Thank you, Sheriff Brostrom. I appreciate 
your testimony. Nathan Burr, you may proceed.

 TESTIMONY OF NATHAN BURR,\1\ HAVRE SECTOR VICE PRESIDENT AND 
    U.S. BORDER PATROL AGENT, NATIONAL BORDER PATROL COUNCIL

    Agent Burr. Thank you, gentlemen, for allowing me to be 
here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Burr appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    I have been asked to address the Border Patrol's role in 
securing the Northern border. The Border Patrol is responsible 
for providing security in between the ports of entry along the 
entire length of our Nation's borders. During hours that the 
ports are closed, we're responsible for their security as well. 
When it comes to the security of our Nation's borders, it 
begins and ends with us.
    For the most part all of our resources and focus is on 
guarding this Nation's borders. The problem that we have is 
that our meager pool of resources is becoming increasingly 
shallow. The combination of the Border Patrol's last 
congressionally mandated mass hiring and then the current 
budgetary crises has left many areas drastically underfunded. 
Fuel and vehicle maintenance funding are two of the more 
apparent areas. In spite of our dedication and best efforts, it 
is difficult to adequately perform our duties without the 
proper resources.
    In regards to interagency cooperation at the Federal level, 
it is completely functional, but strained. Complete interagency 
collaboration is subdued and in some cases thwarted by 
insecurity and fear. Many agencies are more concerned with 
protecting their territory than actual mission accomplishment. 
In my experience, this is doubly true of any agency dealing 
with either immigration or border security. The relationship in 
between the U.S. Immigration and Customs Enforcement (ICE) and 
the Customs Border Patrol (CBP) is a good example of this in 
regards to some of the issues of interior enforcement and work 
site enforcement. And it is not just--this happens with many 
agencies. HR-1505 was cited in my full written testimony, and 
the need for that is a good example of what I am talking about.
    One of the greatest problems that the Border Patrol faces 
in regards to collaboration and partnership with other 
entities, in particular local law enforcement entities, is that 
of perception. Much to the chagrin of most agents, the Border 
Patrol itself is an intensely political animal. In my 9 years 
of service, I have seen partnerships in two States develop and 
collapse based on the strength and the direction of political 
winds.
    In January 2010, the Havre station stood up a dedicated 
train check unit, of which I was a part. We checked the trains 
every day, and our apprehension numbers skyrocketed. We 
continued checking the train in this matter with or without a 
dedicated train check unit until the fall of 2011, when the 
Border Patrol and Havre sector caved in to mounting political 
pressure and ended our train check operations.
    During that time that we were dedicated to checking the 
train, I watched a tremendous number of partnerships develop, 
in particular with the Amtrak police department, with ticket 
agents in other States. When we were forced to cease the train 
check operations, those relationships withered and died. The 
previous level of cooperation is gone now.
    People generally do not understand the nature of the 
political waters that we tread. They do not understand why we 
are no longer there. They only know that we are not there for 
them now. They feel like they have been abandoned. No amount of 
rhetoric will heal that wound. We have to start over from 
ground zero and rebuilt those relationships. This takes time 
and it slows our progress toward a more secure border.
    The effect of border security and the Border Patrol in our 
local communities can be enormous. I am a local kid, lived in 
this town at this point for 26 years of my life. I understand 
this. Many of us prefer to shop locally, even if it means 
paying a little extra, because we believe in supporting the 
communities that support us. We also require vehicles, ATVs, 
snowmobiles and other equipment to perform our duties. All 
those service vehicles require fuel and maintenance. If there's 
enough vehicles in the fleet, they may require enough 
maintenance for a local garage to need to employ another 
mechanic.
    The majority of us have families. That leads to schools 
benefiting from increased enrollment. Havre Public Schools had 
to hire extra staff in order to accommodate the increased 
enrollment in kindergarten 2 years ago. Many of us had children 
in that class, including myself. Increased enrollment leads to 
increased funding. And that can lead to a potential increase in 
the quality of education that all of our children receive. In 
addition to the benefits to the schools, local youth sports, 
and youth organizations benefit as well. Many of these 
organizations also benefit from agents serving as coaches and 
leaders within those organizations. Many charities benefit from 
having a Border Patrol presence in their community.
    Last year in Havre, a Border Patrol agent's wife organized 
a barbecue cook-off in conjunction with festival days. The 
event was designed to raise money for the local soup kitchen 
and for a church charity. Although there were only four teams 
competing, they raised over $500 for those charities. Of those 
four teams, three were made up of local Border Patrol agents. 
It is one example, in addition to all the other major 
charitable events that take place throughout the country that 
the Border Patrol participates in: The torch run for Special 
Olympics, the Polar Plunge.
    In closing, I encourage you to read my full written 
testimony. Due to the time constraints for opening statements, 
I had to trim a lot of the detailed information out of my 
statement. More complete information and specific examples of 
everything that I said is included in that testimony.
    Thank you, again, for the opportunity to address you today. 
And I look forward to your questions.
    Senator Tester. Thank you for your testimony. I will go to 
Debbie Vandenberg.

  TESTIMONY OF DEBBIE VANDEBERG,\1\ EXECUTIVE DIRECTOR, HAVRE 
                      CHAMBER OF COMMERCE

    Ms. Vandenberg. Thank you, Senator Tester, Congressman 
Daines, for inviting me to participate on this panel. As a 
representative of the Havre business community, it is truly an 
honor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Vandeberg appears in the Appendix 
on page 34.
---------------------------------------------------------------------------
    The two topics that I will address today are commerce, 
trade, commerce also tourism. As we all know exports bring new 
money to Montana. And Canada and the United States enjoy one of 
the most prosperous relationships in the world with a high 
volume of bilateral trade each and every year with those 
numbers reaching obviously in the high billions with thousands 
of travelers crossing our borders between Canada and the United 
States.
    Montana and Canada have a profitable trade relationship as 
well, with billions of dollars moving back and forth across our 
border. Canada is Montana's most important export destination, 
purchasing more from Montana than all other countries. 
Obviously some of those top exports being paperboard, 
automobiles, electric generation, crude oil, plywood, and 
plyboard for some examples.
    Some of the challenges that we face in this trade and 
export arena is obviously the transportation. Over 60 percent 
of this trade or exporting that goes into Canada is done by 
trucks through our ports. As you well know, there is a large 
contingency within this area, as well as in the Alberta area 
working to expand our border hours to be more consistent, which 
also leads to challenges for our truckers who reach the border 
and find out the border is closed, because our hours are never 
the same. Obviously with trucks moving, that requires upgrades 
in road infrastructure, which a group is also working on that.
    In visiting with some of my business folks today, 
permitting for agricultural equipment moving back and forth 
between Canada and the United States has become quite 
burdensome. A few years ago Mr. Harmon noted that he only 
needed four permits to cross the border with ag related 
equipment. Now it is over 14. So because we are not a 
commercial port, it is a permit commercial port. The permitting 
process sometimes can break down when, he noted this morning, 
that four copies need to go to four different people. And if he 
arrives at the port and somebody does not have that one piece 
of paper, he has to turn around and go back. So, anyway, the 
permitting process he hopes will be streamlined. Obviously we 
require a 72-hour port notice and the broker process. Basically 
the feeling is, when the doors are not open, how can we do 
business. We are basically closed for business with 
inconsistent hours at the port.
    Tourism is also a great economic driver. For Montana in 
2012 nonresident visitors spent $3.2 billion. Top categories 
being retail, hotel, restaurant, and gas, with groceries being 
a growing category. The Havre area had a survey done in 2002 by 
the Institute for Recreation and Research based out of the 
University of Montana. A sample survey showed a result that 
tourism was a $12 million economy to Hill County then. A 
similar sample survey was done in 2010 resulting in information 
that tourism has grown to be a 20 million plus industry for 
Hill County. Quite a good industry for us. Again, the top 
categories mirrored that of Montana as being retail, hotel, 
gas, restaurants, and groceries. Again, this is all new money 
to our State, as well as to our community.
    To drill down on this further, the Montana Office for 
Tourism and ITR reported that Canadians in 2011 spent an 
estimated $210 million in Montana. 28 percent of that were 
nights spent right here in central Montana, with 65 percent of 
those visitors coming from Alberta.
    Knowing this the Havre Area of Chamber of Commerce Tourism 
Committee and our Tourism Business Improvement District 
developed an aggressive marketing plan focused to Alberta for 
year-round and some marketing into Saskatchewan. The marketing 
plan partners with the Montana Office of Tourism, as well as 
Central Montana Tourism. The print media campaign is a year-
round campaign. We are also social based on the web and on the 
Facebook. Special inserts have been done quarterly by our local 
newspaper, and we advertise our events.
    As mentioned, retail being one of the largest categories 
for expenditures, our local businesses have benefited greatly 
from the favorable exchange rate for Canada. Some businesses 
reported in a Chamber survey that as much as 50 percent of 
their business during the holiday season could be Canadian 
sales. Our challenges, again, are the inconsistent hours at the 
border. Inconsistency, again, affects our business.
    We facilitated some workshops in educating our businesses 
with the challenges that we have in the use of Canadian debit 
cards and the banks, in that they can't obviously deposit their 
money to our Federal reserve. It has to be brokered out. So 
businesses depositing cash at their banks creates a little bit 
of a challenge, and we've had workshops to try to educate and 
mitigate those problems. I understand next year we will have 
the euro chip in our credit and debit cards, which will make it 
easier for us to do international trade.
    I thank you for this opportunity and look forward to your 
questions.
    Senator Tester. Well, thank you, Debbie. I appreciate all 
of your testimony.
    I will just start, like I said, if you could just remind 
me, Cheryl, when we get to seven, then I will kick it over to 
the Congressman, and we will go back and forth.
    I will start with you, Sheriff Brostrom, and I will ask the 
same question to you, Nathan. From your perspective, your law 
enforcement perspective as Hill County Sheriff and you as an 
agent, what are the biggest challenges that you see on the 
border?
    Sheriff Brostrom. For local law enforcement, I guess, the 
size of the border, the size of Hill County, and limited number 
of deputies that I have to do for patrolling and take calls for 
service. And, of course, with the county budgets being tighter 
than ever, that also plays a role.
    Senator Tester. OK. Nathan.
    Mr. Burr. For us it is definitely the size, but that goes 
hand-in-hand with the type of terrain that we have specifically 
in our area here. My previous station in Arizona, there were a 
lot of choke points based on all of the little mountain ranges 
that were scattered throughout. Here it is a big, wide open 
area that's incredibly difficult to try to cover with the 
limited amount of manpower, and, it is tough. There's no 
natural choke points where you can put sensors or anything like 
that. It makes it difficult.
    Senator Tester. OK. Population is I think, what, six people 
per square mile in this neck of the woods. Federal law 
enforcement, I think, has relied on the eyes and ears of the 
local folks, potentially alert them if there's suspicious 
activity going on. How are those partnerships working in your 
perspective, Nate?
    Mr. Burr. Wonderful. I am biassed because I am from here. 
But I think we have some of the best people in the world here. 
And those relationships are key to trying to provide adequate 
coverage up there. We get a lot of good feedback. And it is a 
very good relationship and a very valuable one.
    Senator Tester. Sheriff Brostrom, and I do not know, this 
question will probably be asked of the next panel too, may 
apply to them more than you, but do you have any interaction 
with Canadian law enforcement or your counterparts to the 
north?
    Sheriff Brostrom. Generally it is more toward 
communications, interoperable communications, more toward the 
law enforcement end of it. But I do belong to a couple of 
different cross-border committees that are studying how we are 
going to talk with, Montana is going to a VHS system, our truck 
radio system, and the Canadians go to either 7 or 800 megs. So 
it is more along those lines.
    Senator Tester. You talk about operation Stonegarden, and 
they have done, obviously done some good work granting some 
dollars in here. Are there any other pools of money that you 
look at, or is that just about the only game in town?
    Sheriff Brostrom. No. Hill County over the years has been 
very fortunate receiving both State grants and Federal grants 
to the tune of, just in the sheriff's office, close to $3 
million probably in the last 10 years. But unfortunately those 
grants are drying up quickly. Stonegarden, we have had 
Stonegarden since 2005. Over the course of 2005, 2008, 2009, 
2011, 2012, and we just applied for 2013. So Stonegarden has 
been one that has always been there.
    Senator Tester. Yes.
    Sheriff Brostrom. And it works, I think, well for the 
Border Patrol. But it works extremely well for my office, 
because we get out and we get to patrol the areas that we do 
not normally patrol.
    Senator Tester. OK.
    Sheriff Brostrom. Simply because my guys go to where the 
trouble spots are. They do not normally run up and down the Hi-
Line, because we have had those folks up there in those 
communities for generations. And we do not have a lot of 
problems on the Hi-Line as much as we do in other areas of the 
county. So it gives us that extra opportunity to get out and 
talk with the residents, see what is going on. A lot of the 
information that we get that we can pass on to the Border 
Patrol comes from the folks that live up and down the Hi-Line.
    Senator Tester. OK. When I was in the State legislature, 
interoperability was a big issue, because it did not exist for 
the most part. Can you give me an idea today, I mean that's 
been almost 10 years ago now, but today how interoperable are 
we? Are there still some gaps in there that we need to be 
paying attention to?
    Sheriff Brostrom. We have made leaps and bounds in the last 
10 years, but there's still a lot of work to do. I think we 
have been working hand in hand with local police department, 
Border Patrol, rural fire agencies, all of the responders 
locally in Hill County, as well as the cross-border in Blaine 
County, Liberty County, and Chouteau County, as well as our 
Federal partners. There's a lot of work to do, but I think we 
have made tremendous movement in the last 10 years.
    Senator Tester. How do you feel about that, Nathan? Same 
perspective?
    Mr. Burr. Yes. The radios that are vehicle based work 
really well and the interoperabilities.
    Senator Tester. Well, I think we talked about 
communication. I think you talked about, Sheriff, about how 
quick the communication was, and this was a part of that. And 
if there are, if there are things out there that are impeding 
your ability to do your job, because we do not have the 
equipment, we would sure love to know about that. And, like I 
said, Chris, you will probably get the same line when you come 
up. I think it is really important. You ca not access the 
resources that are out there, if you ca not talk to them 
basically.
    Debbie, I know you have worked hard, along with many of the 
other folks in this room and people in this community, on Wild 
Horse and commerce with the border. If you could, just kind of 
discuss, you did in your opening statement, I would just like 
to have you flush out a little more about the challenges of 
local business base when it comes to attracting folks to come 
down here.
    Ms. Vandenberg. Well, the first challenge, and you know 
this, Senator Tester, because we have been talking about this 
for how many years, is access to the State through the border 
and those inconsistent hours. And we have talked about the 
pilot program that we need. The business community is very much 
in support obviously those more open hours to the border, more 
open door. I mean and that's a huge challenge. If the door is 
closed, then we ca not do business. And we were very excited 
when we were able to get the extra month into October 31 for 
those expanded summer hours. It is huge to our economy.
    Visiting with one of my businesses this morning, I mean he 
literally delivers furniture over the border, unloads it, the 
customers meet him at the border, they load it into their 
vehicles and drive back. And several comments have been, if it 
was not for the great benefit to us and the Canadian exchange 
rate now, I think that our economy in Havre would have some 
challenges. So we are grateful for that Canadian business.
    The other challenge is on the point of sale part. And we 
have learned that obviously the Federal reserve does not take 
our Canadian money. It is international money. So it has to be 
brokered out. So our banks, we just had an incident in one of 
our banks the other day, where a Canadian came in to get some 
money, and he was charged a service charge. Well, they have to 
broker that money. So they have to pay to ship it and all that 
kind of stuff. So even though it says it is at par, there's 
some added fees to that.
    One of the other challenges that we discovered the 
Christmas before last was a lot of our merchants' modems did 
not read the Canadian debit card. And they have a chip in there 
that is different than ours.
    Senator Tester. That's right, Debbie.
    Ms. Vandenberg. So we were not as business friendly as we 
wanted to be. I mean we were marketing and inviting people to 
come down and shop. We have people standing outside the doors 
of the mall in below zero weather on Boxing Day, the day after 
Christmas, to come down and shop in our community. And they 
have the Bay Company. But, anyway, so we have worked hard. We 
brought in some folks from Canada certified to educate our 
business community on different opportunities that they have to 
update that system to be more customer friendly, and it is 
working, but it is a process.
    Senator Tester. I am going to turn it over to Congressman 
Daines in just a second.
    But I think there's some opportunity that we need to visit 
about, and maybe get Visa and MasterCard in here to see if it 
is possible to get help with this issue.
    Ms. Vandenberg. What I learned this morning, in talking to 
a couple of the banks, is that we are just technology-wise we 
are a little bit behind the eight ball in getting that euro 
chip into ours.
    Senator Tester. Congressman Daines.
    Congressman Daines. Thanks, Senator. Sheriff Brostrom, 
thank you for your service to the community, allowing parents 
to sleep better at night and the community. But I want to ask 
you what keeps you up at night, as you think about the 
challenges at the border?
    Sheriff Brostrom. That's a good question. I guess the 
things that I do not know, what may be happening that I am not 
aware of or do not know that may be coming across the border. I 
guess that's why I rely on the experts in the green uniforms to 
keep me informed when we have those quarterly meetings of the 
things that they know that they share with local law 
enforcement.
    Congressman Daines. When you think about the risks out 
there, what are some of the greatest risks that you see as you 
think about protecting your county and our State and so forth?
    Sheriff Brostrom. Of course, drugs is always a key issue, 
combating drugs, prescription drugs especially, not knowing 
where they are coming from. Some of it may be coming across the 
border. Obviously it is coming across from other States into 
Montana and into Hill County. I guess that's always the key on 
the forefront of everybody's mind is where are the drugs coming 
from, what are we going to do about the epidemic in Montana, 
especially in Hill County.
    Congressman Daines. Nathan, what are your thoughts on that, 
what keeps you up at night?
    Mr. Burr. The potential number of terrorists in Canada and 
how open the Northern border is. There's a chance that maybe 
they won't transit through this area. Maybe they do something 
here.
    Congressman Daines. And something that we were discussing 
just on Wednesday, when Mayor Giuliani came to our Homeland 
Security Committee hearing, and we were looking at how we could 
have prevented the Boston marathon attack, and I think there's 
consensus that we could have done better in that regard, and 
one of the challenges was a breakdown between intelligence of 
what the FBI knew versus what the local law enforcement knew.
    Let me ask a question: In terms of your relationship with 
intelligence from the FBI and so forth, do you feel like, 
Sheriff Brostrom, are you getting information that you need to 
make sure that--because the boots in the ground here, the local 
intelligence is sometimes the best intelligence.
    Sheriff Brostrom. Well, I said earlier that I think it is 
all down to communication, and I still say that. Whether it is 
the FBI, the Border Patrol, any Federal partner, city police, 
sheriff's office, going into Blaine County, Liberty County, we 
all need to talk to one another. I think our local Federal 
partners do a great job of informing the local city police, 
local sheriff what is going on in our community. But obviously 
that can always get better.
    Congressman Daines. Nathan, your thoughts on that.
    Mr. Burr. Just to clarify my role in everything, I am 
sitting here in a suit, but my actual role on the Border Patrol 
I am a dirt sniff and run. The lowest of the low, and a lot of 
the information does not get pushed down there. Our 
intelligence department is great. They do a lot of good work. 
Our management side of things, I think they get a little bit 
more than what we do, and it does not seem like, in regards to 
FBI, I get one FBI alert e-mail a week, I think. That's about 
it. Grand scheme of things, I do not think that the guys on the 
ground really know as much as what they could.
    Congressman Daines. I appreciate the perspective of Sheriff 
Brostrom, always can improve communication, cups of coffee, 
both informal and formal. Sounds like it is an area that we can 
improve an opportunity for us to continue to work on to 
leverage the limited resources that we have.
    Nathan, you made a comment, too, intrigued by, you spent 
time on the Southern border.
    Mr. Burr. Yes.
    Congressman Daines. And as a Montana kid, also 
understanding the Northern border now very well. Maybe share a 
little bit more, because we hear so much, again, about the 
Southern border. The focus in Washington is on the Southern 
border. You mentioned some choke points of topography that 
actually allows the Southern border, it is easier to secure 
even than the Northern border. If you can elaborate more on 
that for us on around the challenge of the Northern border 
versus the Southern border.
    Mr. Burr. Well, it is not necessarily easier. In a lot of 
cases there's more to work with. And, I mean, my view point was 
the Sonora Desert in Arizona. They have places where they have 
the river and different stuff that presents a challenge. The 
prairie or high desert areas, a lot of it is just open. Barring 
two track roads and that, they could be anywhere. Trying to 
find vehicular traffic would almost be like trying to find air 
traffic. There's not much to stop them.
    The challenges up here, the biggest thing and the biggest 
shocker for me was just that. It is that wide open. There's no 
border road up here that actually runs directly along the 
international border. That can present a challenge too. That 
gave us an area to work down south and to transverse along the 
border to see what was going on, where we were completely 
beyond reproach. For the most part, nobody could complain about 
us being on that, because of some of the legal aspects. There's 
a strip of ground through there and that. So that's a challenge 
up here. To try to track things out, big difference trying to 
track in between good sand and grass and hard pack up here. 
Those are all the biggest things, the terrain.
    Down there, they are dealing with so many numbers, and so 
many numbers, and so many numbers. And every group reduces your 
manpower by at least one, because you have one guy chasing 
them, and that makes it that much easier for the next group to 
go through.
    Congressman Daines. One more comment that you made about 
the train checks you said that were going along and then 
there's some challenges there. What needs to be done to get 
that back on the tracks, excuse the pun?
    Mr. Burr. We are making some really good steps in the right 
direction. This actually, from my perspective, it comes at kind 
of an awkward time. We had a change of command. We have a new 
chief now. Our previous chief, she was not quite as big on 
enforcement as what I would have liked to have seen. Chief 
Richards, that's a focus. Came in immediately, and we are back 
on the trains working it in a little different manner, trying 
to have a lower impact on the public. And so we are taking 
steps that are in the right direction. But, for us, 
apprehensions are not where they were.
    Congressman Daines. Thanks. I want to make sure I save some 
time for Debbie.
    Ms. Vandenberg. That's OK.
    Congressman Daines. Seven minutes goes by way too fast.
    Debbie, I'm struck with your comment about 4 permits to 14 
permits to move ag equipment across lines. What are we going to 
do about that? That sounds ridiculous.
    Ms. Vandenberg. And the gentleman that I spoke to Jon knows 
very well, Ron Harmon, with Big Equipment Company. And he said 
probably 3 years ago or 4 years ago, it was four permits. And 
he said over time it is ratcheted up to the 14 permits. And he 
said every time we, the United States, adds a permitting 
process, the Canadian side ramps up their permitting side as 
well. So he said it is just as cumbersome going up as it is 
coming back.
    Congressman Daines. Right. I am sure that we would love to 
get more on that----
    Senator Tester. Absolutely.
    Congressman Daines [continuing.] To figure out how do we 
downsize the permitting process here to make more sense. And 
then one last question----
    Ms. Vandenberg. And he would be willing to visit with you 
about that too.
    Congressman Daines. I think that would be good for us to 
figure that out. The last question for you, you mentioned 
there's some real potential economy here with getting the hours 
straightened out, getting the border a little more accessible 
back and forth. Is there a way to help quantify that, thinking 
of the cost benefit, because it might require investing in more 
resources to do that, but what the benefits might be in terms 
of the economy here?
    Ms. Vandenberg. We have done some surveys within the 
business community, and we could probably do that again. I know 
a few years ago we did the study in partnership with Bear Paw 
Development, with Dr. Varkeo with the University of Montana 
showing the economic impact should the border go 24-hour 
commercial. And that report could probably be updated.
    Congressman Daines. It might be a to-do, because it is more 
tax revenues, so looking at how much is my cost versus----
    Ms. Vandenberg. The jobs, economy, and that.
    Congressman Daines. You bet. OK. Great. All right. Thank 
you, Senator.
    Senator Tester. Thank you, Steve. I just have one more 
question for you, Nathan. And it has to do with travel long 
distances from both places like Havre to the border Turner, for 
example. Long haul, often take at least an hour, maybe two to 
get there. Many of your agents, and you correct me if I am 
wrong, operate individually, so manpower could be stretched and 
utilized. Any gaps in the work shifts would create definite 
repercussions, as you said, if somebody is gone from the 
border, it is a problem.
    Mr. Burr. Yes.
    Senator Tester. So the reality of this is overtime pay, 
ultimately.
    Mr. Burr. Yes, sir.
    Senator Tester. So I just want to get your opinion on the 
currency of the pay system. Does it make the most sense for 
folks like you and the agency you serve, does it make most 
sense for border security, does it make sense for the taxpayer 
the way the system currently works with overtime pay.
    Mr. Burr. Yes, it does. The current system has been under 
attack for several years now, and it is certainly coming to a 
head. But the biggest thing with administrative controlled 
overtime (ACO) it is called, we are not really getting overtime 
pay for those hours. So we are really quite a bargain for the 
government. We are making regular pay for those. For the most 
part, everybody else in America that works 40 hours a week gets 
time-and-a-half minimum. We do not. There's a portion in those 
hours where Fair Labor Standards Act pay kicks in. And that 
does bump us up to nearly time-and-a-half. Anything that we 
work beyond 100 hours in a 2-week pay period, we get paid half 
time beyond that. So financially we are a bargain for the 
government. The pay reform bill that you put forward, even more 
so. We will save the government millions off employment. They 
are already saving on us.
    But those hours that we work, and that's the biggest 
factor, I mean forget the pay, it takes us roughly an hour-and-
a-half to get up to Turner. It takes roughly an hour-and-a-half 
to get up to Chester or to the, north of Chester it is pretty 
much directly north of Chester, Larry Road. But if we do not 
have the ability to work those overtime hours, I am going to 
have to leave the field, leave the area of Turner, an hour-and-
a-half before the end of my shift. It is going to take the next 
shift an hour-and-a-half to get out there, and that's going 
beyond time to do muster, get vehicles, anything else that 
anybody else needs, the little housekeeping issues that come up 
at the beginning of the shift. The same thing for the other 
shifts.
    So those areas will see 3 hours completely open, if people 
lose this pay. I mean, traditionally everywhere in the Border 
Patrol the seams in between the area's responsibilities and 
stations is always exploited. And it does not take a tremendous 
amount of intelligence, work for smuggling organizations and 
that to figure out where those seams are. So that pay, but more 
importantly those hours, that's vital for security. Without 
that, there's a huge gap.
    Senator Tester. Thank you. Congressman Daines. Just real 
quick and we will get the next panel up here in a second.
    Debbie, if we might, I would love to have you visit with 
some of the banking folks, and I am serious about getting Visa 
and MasterCard on the phone and talk about solutions and a 
timeframe for that, because we ought to get in the 21st 
Century. So thanks.
    I just want to say thank you to the panel. I very much 
appreciate your guys' service, appreciate your testimony here 
today, your openness with your answers to Congressman Daines 
and my questions. So thank you very much. And carry on and keep 
doing good work.
    While this panel gets settled back, we are going to bring 
up our second panel. While they are coming up, I am going to 
introduce who they are.
    We have Kumar Kibble. Mr. Kibble serves as a Specialty 
Agent in Charge of Homeland Security Investigations (HSI), in 
the regional office in Denver, Colorado. Welcome to Montana. He 
is responsible for leading transnational criminal 
investigations conducted by Homeland Security investigations 
offices based throughout Colorado, Montana, Utah, and Wyoming. 
He began his government career as an infantry officer with the 
82d Airborne Division. So we want to thank you, Mr. Kibble, for 
making the drive up here from Denver. You did not even fly. 
Thank you for being here.
    Mr. Kibble. Thank you, sir.
    Senator Tester. Next we have Christopher Richards. Chief 
Richards is currently the Chief Patrol Agent for the Havre 
Sector. His career with the U.S. Border Patrol spans more than 
27 years. Prior to his selection as chief of the Havre sector, 
he was assigned to the U.S. Border Patrol headquarters as an 
associate chief. Chris Richards and I have spent a fair amount 
of time on the airplane together.
    Yes, we will. OK. Go ahead and switch it.
    (Whereupon, Videotape 1 ended. Videotape 2 begins.)
    Senator Tester. The third member of this panel is Robert 
Desrosier. Robert serves as the Homeland Security Director of 
the Blackfeet Nation. A post that he has held since 2006. He is 
also Chairman of the Montana Indian Nation Working Group. 
Robert has testified before our committee before, and I want to 
thank you for being here again today.
    Each of you, as with the previous panel, will have 5 
minutes for your opening statement. And know that your full 
written statement will be entered into the record. And with 
that we will start with you, Mr. Kibble.

   TESTIMONY OF KUMAR C. KIBBLE,\1\ SPECIAL AGENT IN CHARGE, 
            HOMELAND SECURITY INVESTIGATIONS DENVER

    Mr. Kibble. Chairman Tester and Congressman Daines, thank 
you for the opportunity to appear before you in Havre to 
discuss ICE's efforts to improve security along the Northern 
border of the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kibble appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    ICE employs a multi-layered law enforcement approach to 
Northern border security based on an understanding that our 
geographic boundary with Canada is only one piece of the 
criminal continuum. It is neither the starting point nor the 
final destination of cross-border criminal activity. In fact, 
this illicit activity is often rooted in interior cities, as 
well as in smaller communities, throughout the United States. 
It is in these communities where the vast profits are generated 
that sustain the operations of transnational criminal 
organizations (TCOs), and where ICE succeeds on a daily basis, 
together with our interagency partners, in disrupting and 
dismantling the entire smuggling enterprise.
    ICE is positioned to leverage its broad statutory authority 
to support border enforcement by working in close coordination 
with other DHS components and U.S. interagency partners, as 
well as our counterparts in Canadian law enforcement, to target 
the illicit pathways and organizations that produce, transport, 
and distribute contraband.
    We continue to disrupt cross-border criminal activity 
systematically at all stages through effective cooperation and 
collaboration with our Federal, State, local, tribal, and 
importantly international law enforcement partners. We are 
making it increasingly difficult for TCOs and other criminals 
to operate.
    In fact, speaking of international partnerships, ICE 
maintains the largest investigative footprint of any U.S. 
investigative law enforcement agency in Canadian, with an 
attachee and assistant attachee offices in Ottawa, Vancouver, 
Toronto, and Montreal, that enhance national security by 
conducting investigations involving transnational criminal 
organizations and also serving as the agency's liaison to our 
interagency partners and counterparts in local government and 
law enforcement. In Montreal, for example, HSI operates a Visa 
Security Unit (VSU) to complement the traditional screening 
provided by providing additional level of review of visa 
applications of special interest persons before they enter the 
United States.
    A crucial aspect of our approach to Northern border 
security is our partnerships with our colleagues across DHS 
agencies, as well as with Federal, State, county, local, 
tribal, and foreign agencies. These partnerships are absolutely 
essential to the joint operations and information sharing along 
the Northern Border and beyond. And they are conducted in the 
spirit of the President and Prime Minister's Beyond the Border 
initiative, which seeks to promote integrated cross-border law 
enforcement. Collectively these agencies possess a unique 
understanding of the threats, risks, and vulnerabilities along 
the Northern border that enhance our ability to deter, disrupt, 
and investigate illegal cross-border activity.
    We are also an active participant in the Canada U.S. Cross-
Border Crime Form (CBCF). The CBCF meets annually. Smaller 
working-level meetings throughout the year, bringing together 
more than 100 senior law enforcement officials and prosecutors 
from Canadian and the United States to address cross-border 
issues, including counterterrorism cooperation, mass-marketing 
fraud, interoperability of our respective law enforcement 
agencies along the border, and combating organized crime. ICE 
and Border Patrol leadership, in particular, meet on a regular 
basis, along with leaders of other DHS components to discuss 
areas of mutual concern.
    Our flagship task force program, the Border Enforcement 
Security Task Force (BEST), was created in 2005, is a mechanism 
to address the threat of cross-border crime. BEST task forces 
provide a proven and a flexible platform from which DHS 
investigates and targets transnational criminal organizations 
that attempt to exploit vulnerabilities at our Nation's 
borders.
    We are working tirelessly in coordination with Federal, 
State, local, international, and tribal agencies to identify, 
disrupt, and dismantle these TCOs that subvert the rule of law, 
violate our immigration and customs laws, destabilize our 
communities, and threaten national security.
    We commit substantial resources along the Northern border, 
and our considerable efforts are part of a comprehensive 
strategy that focuses on securing the border, dismantling the 
infrastructure that supports cross-border criminal activity, 
and identifying and seizing the illicit profits from these 
crimes. We are dedicated and committed to this mission, and 
look forward to continuing to work with Congress on these 
efforts.
    And, again, thank you for inviting me to appear before you 
today. And I would be pleased to answer any questions.
    Senator Tester. Thank you, Mr. Kibble. Chief Richards.

 TESTIMONY OF CHRISTOPHER RICHARDS, HAVRE SECTOR CHIEF PATROL 
                   AGENT, U.S. BORDER PATROL

    Mr. Richards. Chairman Tester and Congressman Daines, it is 
a privilege and honor to appear before you today to discuss the 
efforts of the United States Border Patrol in securing the 
Northern border. Please allow me to begin by expressing my 
gratitude for your support of the mission and the people for 
the U.S. Border Patrol. We greatly appreciate your efforts and 
assistance, and I look forward to continuing to work with you 
and your staff in the future.
    As part of America's frontline border agency, the U.S. 
Border Patrol operates between the ports of entry, with the 
primary goal of protecting the American people from persons, 
organizations who pose a threat to our Nation. Our work to 
reduce the likelihood of terrorist attack, while providing 
safety and security for our citizens, is an ongoing mission. We 
will expand on the integrated approach to border security that 
is proven successful, including active engagement with law 
enforcement, community, and civil partners at the Federal, 
State, local, tribal, and international levels.
    In addition to expanding collaboration and partnering, the 
implementation of the U.S. Border Patrol's risk-based strategy 
will greatly focus our efforts. Our new strategy takes a more 
holistic view, examining threats, vulnerabilities, and risk 
laterally across the border and in depth beyond our borders 
while moving our organization toward a mobile and flexible 
workforce that can rapidly respond to emerging threats and 
mitigate risks.
    As you know, the Montana border is expansive, characterized 
by vast plains with deep coulees in central and eastern 
corridors and by rugged mountainous regions in the west. Our 
challenges in gaining situational awareness of these are many. 
Primary among them is our ongoing requirement for accurate 
information and timely intelligence. Both are essential in 
providing agents with critical insight about those who seek to 
cross our borders with criminal intent.
    Operations within the Havre sector have evolved over the 
years. 72 percent of Havre sector's border is privately owned 
agricultural land. And our connection to our local stakeholders 
is a critical component of our mission. Additionally, we rely 
on various forms of detection compatibility. In some areas of 
our border, we require the ability to quickly identify and 
classify cross-border entries and rapidly respond to effect an 
arrest. In other areas, generally characterized as remote, 
situational awareness is aided by the deployment of unmanned 
aerial systems (UASs).
    These UASs are equipped with intelligence, surveillance, 
and reconnaissance sensors that provide agents and 
decisionmakers with greater situational awareness of border 
areas through change in detection technology and trend 
analysis. These technologies, with other methods of information 
collection and full integration with our partners will 
establish the basis from which we will qualify our success.
    I assumed command of the Havre sector in April of this 
year, and I quickly established two priorities: To enhance and 
improve communications both internally and externally, and to 
focus our resources on the collection of information. The 
latter is consistent with the 2012-2016 Border Patrol strategic 
plan that is built upon the three pillars of information, 
integration, and rapid response.
    As we gather and analyze information, we will proactively 
integrate with our Federal, State, local, tribal and 
international partners through operational planning that seeks 
common objectives and outcomes. Drawing on all of our 
collective resources, we will rapidly respond to mitigate the 
risk. This whole government approach will depend upon 
cooperation amongst all agencies up to and including the Border 
Patrol sectors to my east and west, which takes me back to my 
first objective of communication. Everyone in this room 
understands that in order for partnerships to succeed, trust 
must be established through communication.
    My staff and I are committed to building coalitions within 
our own ranks and among our external partners and community 
stakeholders. In the end, we all want the same thing: To feel 
safe in our communities. And border security is essential to 
that pursuit.
    I am proud to represent the agency at the frontline of that 
objective and to speak for the men and women who proudly serve 
in this uniform.
    Thank you and I look forward to your questions.
    Senator Tester. Thank you, Chief Richards. Robert 
Desrosier.

  TESTIMONY OF ROBERT DESROSIER, HOMELAND SECURITY DIRECTOR, 
                        BLACKFEET NATION

    Mr. Desrosier. Congressman Daines, Senator Tester, thank 
you very much for this opportunity to address you today and 
your concerns on the Northern border. I feel very fortunate to 
have this job as the Director for Homeland Security for the 
Blackfoot Nation.
    Our nation is roughly 3 hours west of here. And we are a 
border tribe. We have roughly one-tenth of the Montana border 
adjacent to tribal lands. The Blackfeet Nation is a million-
and-a-half acres, and our population runs a little over 8,500 
people pretty normally. However, in the summertime today, we 
are a little over 22,000-23,000 people, because of the park. 
And I just heard yesterday that Glacier National Park just hit 
a million visitors this year already. Most of that impacts the 
tribal lands and the Indian nations. So we have a very tough 
challenge confronting us, since my operation is a two-man 
border security force. I have myself and a deputy.
    It is quite challenging at times. Some of our demographics 
I mentioned, but our elevation and our terrain is unique. We 
are roughly around 3,500 feet in elevation on the east end to 
about 9,000 on the west end toward the Continental Divide. And 
we have areas on the international border where it is 
inaccessible by motor vehicle. It is either by aircraft or by 
foot. We have pretty good luck in off-road and four-wheel-drive 
vehicles, but I would say that that is one of our challenges is 
good and complete coverage on our Northern border.
    And as I testified here a few years ago, we, at that time, 
completed a very thorough inventory of our border lands. And we 
have identified, at that time, nine illegal crossings that were 
in use out of 14 potentially crossing points on the 
reservation. And this year we are at the same level. We have 
signed--we can pick up signs at any number of illegal crossing 
sites at any given day. And the problem that we face is just 
not having adequate manpower and accurate coverage to be out 
there at a greater timeframe throughout the day.
    I want to mention a story right here, and I will try to go 
fast in the interest time. But a couple of weeks ago I was 
called out at 11 in the evening for three young ladies that 
were stranded on a mountaintop just on the western boundary of 
the reservation. And we responded with a search and rescue 
crew, and we determined that this was an impossible task for us 
to climb up there on the mountain and retrieve these young 
ladies in the middle of the night. So we call in our partners. 
And a nine-member Glacier National Park high-angle rope rescue 
people team arrived at daylight and rescued successfully these 
three young ladies off the mountain.
    But that is a story that often goes unheard of the 
extraordinary gains that we have made in creating partnerships 
with Federal agencies in our tribal law enforcement. We had 
Glacier County Sheriff, Blackfeet Law Enforcement, and Glacier 
National Park that saved these three girls from--they ended up 
spending the night on the mountains, but it certainly could 
have had a different outcome.
    And I want to say that I am very happy of the fact of the 
things that we have been able to accomplish in our 
partnerships. The Border Patrol and their tribal liaison 
program has been very beneficial and very successful. As me 
being the Chairman of the Montana Indian Nations Working Group, 
I also have that person that takes part and does presentations 
and trainings in that larger tribal arena throughout the State 
of Montana. It is a very good thing.
    But there are challenges ahead of us that remain. We have 
to continue to work in that area and become better. We have 
been able to develop safe schools task force that goes into our 
reservation schools, communities and work together multi-
jurisdictional, along with the school administrators. And we 
have monthly meetings and address potential threats to our 
schools and talk about the challenges that we have and assess 
the vulnerability of our schools in our communities. I am 
available for any questions, and I thank you very much again.
    Senator Tester. Robert, thank you very much. And thank you 
all for your testimony. I very much appreciate it. Same format 
as before.
    I will start with you, Mr. Kibble. From an ICE perspective, 
what are some of the challenges that you are seeing on, well, 
on both the Northern border and the Southwest border and kind 
of is a degree of difficulty, let me know?
    Mr. Kibble. Well, certainly, Senator, sequestration brings 
a different set of challenges. Although, I mean we always knew 
the resources are available. We just need to prioritize the 
threats.
    Senator Tester. Right.
    Mr. Kibble. Obviously there's a high volume of activity 
along the Southwest border. Here, to kind of anticipate your 
question, Congressman Daines, in terms of what keeps me awake 
is just are we working in terms of focusing on what we can 
control, are we doing everything that we can in terms of 
information sharing, operational partnership, to keep dangerous 
people and dangerous goods from crossing the border.
    And I think that we can never stop working toward getting 
better and better, but I will tell you it is as good as I have 
ever seen it. I can tell you here in Montana, we do not 
generally comment on specific staffing, but we are dramatically 
smaller than our sister agency HSI, the Border Patrol. And 
without partnership, without close collaboration with them, we 
would be dead in the water, in terms of some of the 
investigations that jointly we have been able to pursue in 
terms of disbanding and dismantling organizations.
    Senator Tester. As far as drug traffic goes, what are you 
seeing on the Northern border?
    Mr. Kibble. Well, it is a great story of collaboration, a 
Border Patrol agent a couple of years ago, 2011, on an initial 
encounter, and then us jointly working together, bringing the 
Royal Mounted Police in, bringing other State and local 
agencies, as well as DEA, we were able to dismantle an 
organization that moved more than a ton of cocaine from the 
United States across the border in eastern Montana into Canada, 
as well as more than a million Ecstasy tablets, MDMA, from 
Canada into the United States. And we know that because, 
working with the RCMP, they were able to get the ledgers that 
showed those 22 separate shipments.
    But, again, working together, and it gets back to this 
integrated cross-border enforcement, working with the Canadians 
to be able to attack the entire continuum is what allowed us to 
have that great success. In fact, it was featured as the model 
for Beyond the Border of X-generation and the Cross-Border 
Crime Forum a couple of years ago. It was excellent work.
    Senator Tester. I do not know if you have a good enough 
crystal ball or if you have done the matrix on this, but how 
much of the illegal drug activity on the Northern border do you 
think you catch?
    Mr. Kibble. Sir, I do not know. That's the challenge there.
    Senator Tester. OK. During a recent trip that I took to the 
Northern border, I spoke with some CBP agents that were 
frustrated by jurisdictional issues. Not to get too specific, 
but CBP had actionable intelligence, and this has been a year 
or two ago, to make a number of arrests in a rate to move 
forward, but ultimately had to defer to ICE, because it was 
deemed as interior enforcement. At the end of the day, nothing 
was done, which is particularly concerning to me considering 
there is a fair amount of money that we put at this stuff. And 
if there's actionable enforcement, nothing is done, that's not 
acceptable. Like I said, that was a year or two ago. We can 
assume it is better now. But can you just tell me now how CBP 
and ICE currently handle overlapping jurisdictions?
    And if you want to jump in on this one, when he's done, 
Chief Richards, you can.
    Mr. Kibble. Certainly. We have a number of policies in 
place to where we complement one another. Border patrol is 
obviously the lead for interdiction between ports of entry. We 
complement that with an investigative function. Here I am 
speaking within Homeland Security Investigations. The other 
directorate within ICE is enforcement and removal operations, 
which does the civil immigration enforcement and the detention. 
We have regular meetings with sector chiefs and special agents 
in charge. We're piloting new partnerships, so that we can 
continue to work closer. I will tell you, years ago, I was very 
concerned about the relationship within DHS. But, again, it is 
as good as I have ever seen it. But we do have work to do. We 
need to keep working to improve it.
    Senator Tester. OK. Chief, would you talk about that?
    Mr. Richards. Yes, sir. Your question specifically was how 
things worked in Montana between us and ICE.
    Senator Tester. That's correct.
    Mr. Richards. OK, sir. So, yes, we have, I am pleased to 
say, a very good relationship with the seven ICE agents that 
work out of the Great Falls office. They complement what we do.
    I've got stories, the one that Mr. Kibble shared with you 
about the crossing that led to the big investigation. Within 
the ICE MOU, there's a threshold.
    If we encounter a situation at the border and there is an 
ongoing case or a potential for a case that would extend 
beyond, we call ICE. And, in fact, I have one of my supervisors 
embedded with the ICE office in Great Falls, who facilitates on 
this conversations. And I would suggest to you that we have 
seamless communication in that area. We have had a lot of 
success.
    Senator Tester. That's good. One more quick one, and then 
Congressman Daines can take it up. Your headquarters is here in 
Great Falls for the State.
    Mr. Kibble. Yes.
    Senator Tester. If you have let's say with the Bakken 
play--this is not hypothetical. It's probably more real than 
hypothetical--and they find an undocumented person, and the 
sheriff locks them down, No. 1, how long are they there for, 
and do you have the manpower to be able to go pick that person 
up and deal with them, because ultimately it is going to be 
your responsibility? And correct me if I am wrong.
    Mr. Kibble. Sir, it would be ICE's responsibility in terms 
of response to a custody kind of situation. That falls within 
our other directorate within ICE that I am not responsible for. 
So I am happy to get that information for you. I do not know 
what their response time is.
    Senator Tester. If you could get that back to me.
    Mr. Kibble. Sure.
    Senator Tester. And basically what I want to know is, No. 
1, do you have the manpower to be able to make a, what is it, a 
10-hour drive from Glendive to Great Falls? It is eight at 
least. Do you have the manpower to be able to do that, No. 1? 
And, No. 2, how long would it take to respond to that?
    Mr. Kibble. Sure, Senator.
    Senator Tester. OK. Congressman Daines.
    Congressman Daines. Thank you, Senator. In a recent 
Homeland Security hearing we had back in Washington, we had 
Secretary Napolitano come and testify and some of her deputies. 
One of the questions was, and I asked the question, as a 
Montana guy, because as the Senator mentioned, so much of the 
focus is on the Southwest border, and we are very concerned 
about the Northern border as Montanans, I asked the question 
what percent of our Northern border is secure. And the answer 
was about 5 percent.
    Now, I am not quite sure how they determined that number. I 
did not really ask how I was defining secure. But I would like 
to throw the question around, how do you measure success, 
because we are sitting here talking about wanting to secure the 
border. My background is in business. We know that if you aim 
at nothing, you will hit it. How do we measure success? What is 
the definition of having a secure border? It is a very 
political issue back in Washington, we want a secure border. I 
would love to get your thoughts. And maybe we will start with 
Mr. Kibble, and then we will go to Chief Richards, and then I 
want to hear from Mr. Desrosier as well.
    Mr. Kibble. Congressman, from our standpoint, because we 
have that investigative function, we do not have the patrol 
function along the border, in terms of how we measure success, 
we look at how we are prioritizing criminal organizations and 
impacting their capacity to smuggle people or goods across the 
border. So we have a strategy called the Illicit Pathways 
Attack Strategy, where we rack and stack based on intelligence, 
based on investigations, based on information from partners, 
what the most serious threats are. And then our success at 
disrupting or dismantling, again, not just the activity at the 
border, but the entire continuum. So our success is measured in 
terms of how have we dismantled organizations that moved X 
number of kilos across the border or X number of people across 
the border.
    Congressman Daines. It is probably less germane to your 
neck of the woods, and probably to the chief. So I will put you 
in the hot seat here. How do we measure success?
    Mr. Richards. Sir, this is a great question. It is one we 
have been discussing for a long time. Chief Fisher has had 
numerous testimonies on the hill explaining a secure border is 
when the American people feel safe that their border is secure.
    How to quantify that is another issue. Different 
methodologies. Of course, down south they are using the 
effectiveness ratio, and it is a complicated math formula that 
just in general it involves flow, apprehensions, got-aways, and 
then we do the numbers. For the Northern border it is going to 
be a little bit different. We are going to be very reliant on 
situational awareness, how well we know what is going on, and 
then how well our resources are at attacking what is going on.
    The No. 1 priority that I have given to my staff and to my 
agents in the field is collection of intelligence, because, as 
Mr. Brostrom stated not knowing what we do not know is a 
problem. Once we have information on the goings-on, whether it 
is frequent or even infrequent crossings, then we can address 
those areas with technologies and resources, personnel and 
otherwise. One of the benefits to Montana, in particular, is we 
do not have a large geographic municipality right on the 
border, but there's a bigger one on the north side, for 
example, Detroit-Windsor, that actually works to our benefit.
    Now, I realize there are still issues with the vastness and 
openness. But the routes and egress, we are able to, with 
information and collection. And then key to this also, I might 
add, is the integration with our partners, ICE and all of them, 
our locals, in particular. We will be able then to mitigate 
that risk.
    And so in answer to your question, I foresee situational 
management with a layered piece of our capabilities, technology 
and otherwise, and we will establish a matrix based on that.
    Congressman Daines. One of the advantages of doing field 
hearings is we get to hear from your folks who are right here 
at the coal face, which I really appreciate, versus, maybe high 
level bureaucrats back in Washington. And do you think it is 
the right matrix? And if you had to think of a matrix or two, 
you know from your view, and I really want to hear from you, 
because you are out here every day getting the dust on your 
truck, what do you think is the right thing to measure there?
    Mr. Richards. You asked the questions of the others, stuff 
what keeps me up at night. And for me what dominates my 
thinking, as the chief of the sector, is how can we do this 
better. I will tell you that I do believe strongly that 
coalitions and partners, not just law enforcement, with 
community, is critical to our success. Chairman Tester, you are 
a landowner, and you know what is going on your property. And 
if I have a connection established, then we have a better 
awareness of what is going on. And it is a needle in a 
haystack, with 460 miles within my OR, difficult, and Mr. Burr 
pointed out some real challenges. However, I think that the 
approach to that is it relies on information, the collection 
thereof, the synthesization of that information into 
intelligence, so we can respond to that with resources.
    Congressman Daines. Mr. Desrosier, speaking of the needle 
in the haystack, I was struck by your comment of two of you to 
patrol that 50, 60 miles from 3,500 to 9,000 feet. How do you 
think about what does securing the border mean to you and 
situational awareness?
    Mr. Desrosier. Certainly information, giving and receiving 
is of the upmost importance. It is the local landowners, it is 
the officer working the beat next to you.
    Two things that happened with great significance to me in 
my operation most recently is the fact that we were able to 
have a Project North Star Meeting--is that what we called it--
in Sunburst recently, where the patrol officers from both sides 
of the border sat down and had a common discussion on what 
these issues are on the Northern border. And the takeaways of 
that was two sheets of paper with everybody's contact 
information. So that we could sit right down on our cell phone 
in the field and call that person who is working north of us. 
And I have used that a couple of times already. And that to me 
was very valuable.
    That was the first time that we have been able to do that, 
in my opinion.
    The second thing is, we are struggling with this all the 
time, and that's improving our communications. We just do not 
have VHF radios capable of talking to the base station when we 
are working in the Chief Mountain Deep Creek area. We had 
satellite phones. The funding, we are not going to be able to 
turn those phones back on until October, because we do not have 
the funding for those satellite phones. They were very 
valuable. We do not have the dispatch capability, card base 
from that area, about that 7 to 10-mile stretch of border up 
there. And I think we have made some progress in that field by 
identifying a common mutual aid law enforcement channel that we 
could talk to Canada on right now. And I think this is the 
first in the Northern border where we have had that approval 
given by the FCC for Montana officers to do that.
    The third thing I wanted to mention is that we have a long 
ways to go in the area of communications. We were involved in a 
hot pursuit of a border jumper that came down Highway 89. And 
we were the third one in a three-car chase. We were tribal 
officers in a third-car chase, with two Border Patrol agents 
ahead of us. There were still tourists on the road. We ended up 
in a traffic jam, and we became the second vehicle in the chase 
with no communications car to car, which is very detrimental in 
that life or death situation. We are on the dispatch. Dispatch 
was on the phone with their dispatch. And it was just a waste 
of time to have to go through two dispatchers and back through 
repeaters and back to the cars. And the information is 
happening so fast, you have to be tuned in right now.
    And as it turned out, we ended up getting in front of this 
stolen car and got rammed in the back, and we ended up 
apprehending the suspect and taking him into custody. But it 
was a very serious situation where tribal officers and border 
agents could not talk car to car. And we are working on that. 
We are making some progress. And hopefully I will not be 
telling you this story this time next year or a few years from 
now.
    Congressman Daines. Thanks, Mr. Desrosier. One more 
question for Mr. Kibble, if I could. And Senator Tester, it is 
a great question, I was thinking about the Bakken, what is 
going on. Wayne Gretzky once said what made him great, he 
skates to where the puck is going. And thinking about where we 
are going to be the next 5 to 10 years, and probably that long 
drive from Denver to Havre, I appreciate the distance. How do 
we make sure we are enforcing the immigration laws and so forth 
there in the Bakken?
    Mr. Kibble. Well, Congressman, we will have to look at how 
that evolves. U.S. Attorney Cotter is taking a leadership role 
and really trying to immobilize Federal support of that. And I 
know that some of the other agencies have seen more of the work 
in terms of their violations. We have some other offices from 
the Dakotas that are probably responsible, that are closer.
    Congressman Daines. Yes.
    Mr. Kibble. It is going to be like we handle any other 
threat. As we see it evolve, we are going to try to staff that 
or address it as we evaluate the resources that are available.
    Congressman Daines. Go ahead.
    Mr. Kibble. I was going to say to date we have not seen 
significant cross-border activity today. But we have to 
constantly reassess.
    Congressman Daines. I was in Sidney last week, met with 
their mayor, their police chief, and their sheriff, and so 
forth, and certainly there's concerns out there. I think the 
Senator's point, one we want to keep an eye on, to have 
presence there, so we can get ahead of it, before it becomes a 
bigger problem.
    Mr. Kibble. Yes, sir.
    Congressman Daines. Thanks for your service.
    Senator Tester. Thank you. I want to talk a little bit 
about military radar that I have been trying to get on the 
Northern border for some time now, because I think it would 
help identify low flying aircraft. Now, I understand that DHS 
entered into an agreement with the Canadian government in 2011 
to begin receiving their radar data. Chief Richards, could you 
give me an idea on how his is working or if it is working?
    Mr. Richards. Sir, I believe it's better. The AMOC in 
Riverside, California, receives the feeds from the radars in 
Canada. So we have a better picture of this stuff. It's not the 
whole answer, sir, but it's much better.
    Senator Tester. OK. Kind of talk to me about agents. It 
would appear to me, from my perspective, that you get an agent 
like Nathan Burr, worked up here for a while, they know the Hi-
Line pretty well, they know the border pretty well, and I guess 
probably the other agents are probably in that same boat, if 
they have been here for any length of time. Correct me if I am 
wrong, do these folks get moved to the Southern border with 
regularity, or is that their call, or is that your call, and 
how does that impact your ability to go to sleep at night?
    Mr. Richards. Within our ranks, sir, it is voluntary on the 
agent's part. Very seldom is there a mandatory relocation of 
people from the Northern border to the Southern border. We have 
negotiated with the union at the national level the voluntary 
relocation program. And we have not seen that for a while, 
because funding is still an issue, sir. But that allows agents 
to bid for position, them to come north and for our folks to go 
south.
    Senator Tester. And that whole immigration debate that the 
senate had here a month ago or so, visa overstays were a big 
issue, has to do with about 40 percent of the undocumented 
folks who are in this country right now. At this point in time, 
I think our government does a lot of data. The Canadian 
government does a lot of data. It would appear to me that some 
swapping of that data may be useful to both countries.
    Mr. Richards. Sure.
    Senator Tester. Can you tell me if that's being done, or if 
there's an issue to get that done, or if there's something that 
we need to do to help that happen?
    Mr. Richards. Sir, at the national level, I honestly cannot 
answer that question. I will tell you at the local level, we 
work really well through the IMITZ with the RCP, our Canadian 
partners. But that's more geographically specific to us. So 
generally I do not think I can answer your question.
    Senator Tester. OK.
    Mr. Kibble. Sir, I would say that the national targeting 
center run with border protection has generally been on the 
cutting edge of trying to get information sharing agreements 
going. And certainly for us, a lot of our visa overstay 
enforcement is coordinated from the information sharing that 
goes on at the national targeting center. As well as the 
university program, the information that we get from 
universities in terms of the student overstays.
    Senator Tester. OK. Good. All right. Robert, thank you for 
being here. I think that you are working in an area that is--
it's not very commonplace on the borders. I mean you have a 
reservation, 50, 60 miles of border with Canada. Can you tell 
me what is your relationship with CBP as far as, if they think 
there's an issue up there, do they get ahold of you? Who do 
they get ahold of, or do they just go up? And then if there is 
an issue, do you oftentimes contact Chief Richards' office and 
say we have something going on up here, we need some help? How 
does the process work?
    Mr. Desrosier. In my experience, as of right now, it is the 
best relationship we have ever had with the Border Patrol. We 
can pass information back and forth regularly, and we often do. 
Most recently we did have a big case in Blackfeet to where we 
called for assistance, and that was handled just perfectly. It 
was without a doubt one of the best I have worked. Yes, we do 
have a relationship that I think was nonexistent a decade ago. 
We do call each other. We were called on that pursuit that I 
talked about. And we called back both directions. Working very 
well.
    Senator Tester. And I think that, as long as stuff works, 
it works. Do you see any need for written agreements, and are 
there any written agreements? Or is it more person to person, 
your relationship with the chief, chief's relationship with 
you? And how do you ensure that, after he leaves or after you 
leave, that relationship, be able to do business, to be able to 
keep our borders secure, continues.
    Mr. Desrosier. It is based on relationships, yes. And also 
very importantly to me too is sustainability. We have to keep 
the same faces in there to develop that level of trust. 
Unfortunately in the past we have not been able to do that. 
Like I say, I think that's very beneficial to the relationship 
that we have today.
    Senator Tester. Steve, do you have any other questions?
    Congressman Daines. No.
    Senator Tester. Well, I would just like to, once again, 
thank you all. If there are additional questions that either 
Congressman Daines or myself have, we will forward them on to 
you and hopefully we can get a response. And for the ones that 
did not get answered today, I would sure appreciate responses 
on those. With that, I will turn it back to Congressman Daines 
for his closing remarks.
    Congressman Daines. Sure. Well, I want to thank all of the 
panelists today, witnesses, for your thoughtful testimony, as 
well as replies to the questions. I want to thank Senator 
Tester as well. I really appreciate him setting this up and 
allowing us to be here together as Montanans to deal with very 
important issues: Securing our Northern border.
    It is also refreshing to have a field hearing right here in 
Havre instead of the normal hearing setting back in Washington, 
DC, where, first of all, it is a lot more humid, Senator, I 
will tell you that. But just the clarity to see the issues 
here. We talk to people here who it is boots on the ground, and 
it is refreshing to get that perspective.
    A couple of takeaways I see here, too, certainly there's 
opportunities in terms of how we measure what a secure border 
means. They say you get what you inspect versus what you 
expect, and figuring how we quantify that.
    Debbie's comments on the opportunities in the commerce 
struck me as well. The upside, they are getting the hours 
sorted out, as well as working these regulations of 14 permits. 
We have to figure out what is going on there, instead of maybe 
four permits 4 years ago. But just thank you for these. It is 
going to help me do my job better back in Washington 
representing this State and the border north here in Montana. 
Thanks, Senator Tester.
    Senator Tester. Thank you, Congressman Daines. I very much 
appreciate your participation in this hearing too.
    And before I get into my closing remarks, there's one thing 
I was going to say. Chief Richards, the issue of trains came 
up, Congressman Daines brought it up. But I very much 
appreciate your proactivity on this issue. I think that it is 
an area that needed to be addressed. And I appreciate you 
stepping up to the plate and readdressing that issue.
    We have covered a fair amount of ground here today. There's 
some challenges on our Northern border. There's no ifs, ands, 
or butts about that. I think if here's one major takeaway about 
it, the better that we can work together, the better we can 
communicate together, the better job we are going to be able to 
do in meeting the needs of the citizenry of this great country.
    This is an issue, by the way, that there should be no 
politics. Oftentimes there is, but there should not be. We have 
heard politics talked today. But the bottom line is, if we can 
get a partnership of elected officials and a partnership of 
agency folks, along with a partnership of folks from local 
government, I think we can do the best job that we have 
possibly done. And I think you guys are well on the road.
    I think back to the hearing that we had 5 years ago I 
believe here. And there was a different response at that 
hearing, entirely different response. So I applaud the folks 
who testified and the different agencies that are here today 
that did not get a chance to testify for their willingness to 
step up, put turf aside as much as possible, and work together 
for the betterment of security of that border. Continue to work 
with Congressman Daines on this issue, and Senator Baucus, and 
our Governor Bullock, and the witnesses who testified here 
today to make sure that these issues are addressed as we move 
forward.
    The hearing record will remain open until July 29 for any 
additional comments that might be submitted for the record. And 
with that, we will adjourn this hearing.

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
